<html>
<title> - INVESTIGATIVE AUTHORITIES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                       INVESTIGATIVE AUTHORITIES

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                              H. RES. 167

   PROVIDING SPECIAL INVESTIGATIVE AUTHORITIES FOR THE COMMITTEE ON 
                    GOVERNMENT REFORM AND OVERSIGHT

                               __________

                             June 18, 1997

                               __________

             Printed for the use of the Committee on Rules



                               <snowflake>



                     U.S. GOVERNMENT PRINTING OFFICE
 45-672 CC                  WASHINGTON : 1998
_______________________________________________________________________
                For sale by the U.S. Government Printing 
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                           COMMITTEE ON RULES

                GERALD B.H. SOLOMON, New York, Chairman

DAVID DREIER, California             JOHN JOSEPH MOAKLEY, Massachusetts
PORTER GOSS, Florida                 MARTIN FROST, Texas
JOHN LINDER, Georgia                 TONY P. HALL, Ohio
DEBORAH PRYCE, Ohio                  LOUISE M. SLAUGHTER, New York
LINCOLN DIAZ-BALART, Florida
SCOTT McINNIS, Colorado
DOC HASTINGS, Washington
SUE MYRICK, North Carolina

                    William D. Crosby, Chief Counsel

                    Daniel J. Keniry, Staff Director

              George C. Crawford, Minority Staff Director

               Bryan H. Roth, Office and Systems Manager

                                 ______

             Subcommittee on Legislative and Budget Process

                     PORTER GOSS, Florida, Chairman

JOHN LINDER, Georgia                 MARTIN FROST, Texas
DEBORAH PRYCE, Ohio                  JOHN JOSEPH MOAKLEY, Massachusetts
DOC HASTINGS, Washington
GERALD B.H. SOLOMON, New York

                          Wendy Selig, Counsel

                Kristi Walseth, Minority Staff Director

                                 ______

          Subcommittee on Rules and Organization of the House

                   DAVID DREIER, California, Chairman

LINCOLN DIAZ-BALART, Florida         TONY P. HALL, Ohio
SCOTT McINNIS, Colorado              LOUISE M. SLAUGHTER, New York
SUE MYRICK, North Carolina
GERALD B.H. SOLOMON, New York

                       Vincent Randazzo, Counsel

                Michael Gessel, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

                             June 18, 1997

Opening statement of the Hon. Gerald B.H. Solomon, Chairman of 
  the Committee on Rules                                             01

Statement of:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana (prepared statement p. 08)......................    03
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California........................................    12
Information Submitted:
    Letter submitted by Rep. Waxman from Rep. Hamilton...........    20
    Summaries of Past Deposition Authority in the House..........    35

                                 (iii)



   H. RES. 167, PROVIDING SPECIAL INVESTIGATIVE AUTHORITIES FOR THE 
              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                              ----------                              


                        Wednesday, June 18, 1997

                  House of Representatives,
                                Committee on Rules,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 6 p.m. in Room H-
313, The Capitol, Hon. Gerald B.H. Solomon [Chairman of the 
committee] presiding.
    Present: Representatives Solomon, Dreier, Goss, Linder, 
Pryce, McInnis, Hastings, Myrick, Moakley, Frost, Hall, and 
Slaughter.
    The Chairman. Mr. Burton is here.
    Where is Mr. Waxman?
    Mr. Burton. I believe he will be here in just a few 
minutes, Mr. Chairman.
    Ms. Slaughter. Can we take a break a minute, or you don't 
want to?
    The Chairman. We are kind of under the gun because of some 
commitments on your side over here.
    Mr. Burton. Would you like me to go ahead and start?
    The Chairman. Would you mind if we go ahead and start?
    Mr. Moakley. No. I think we could start without Mr. Waxman.
    The Chairman. I have an opening statement anyway.
    Mr. Moakley. I don't want the opening statement to go 
without Mr. Waxman.
    The Chairman. That may take some time.
    Mr. Moakley. Make your opening statement and closing 
statement, Mr. Chairman.
    The Chairman. All right. This meeting will come to order.
    We are here to consider House Resolution 167, providing 
special investigative authorities for the Committee on 
Government Reform and Oversight.
    The matter before us is an original jurisdiction hearing of 
the Rules Committee on this resolution providing special 
investigative authorities. I have a brief statement, and then I 
will yield to my good friend, Mr. Moakley, should he care to 
respond.
    At the outset, I would like to commend Chairman Burton. He 
has one of the toughest jobs in the Congress, and all Members 
should take note of the institutional importance of this 
investigation that is taking place. Having served in the 
Minority in this body myself, I most certainly commend Chairman 
Burton's Ranking Minority Member, Henry Waxman, and I wish he 
were here to hear me commend him for his diligence and hard 
work. He is noted for it.
    The Members are well aware of my long-standing concerns 
about the scandal which the Committee on Government Reform and 
Oversight is investigating today. The campaign finance 
improprieties in the executive branch are serious enough, but I 
am truly alarmed at the flood of daily revelations in the media 
which lead me to conclude our national security may have been 
compromised by individuals serving in the Clinton 
administration.
    For this reason and due to the attempts by some to obstruct 
this inquiry, it is necessary for the House to consider a 
resolution giving the committee the tools it needs to 
adequately conduct this legitimate constitutional function.
    The granting of special investigative authorities to 
committees, including staff deposition authority, is not a 
matter the Rules Committee considers lightly. As a matter of 
fact, I have been very hesitant to grant this kind of authority 
on different occasions.
    For this reason, this committee insisted that the 
Government Reform and Oversight Committee adopt committee rules 
in advance which specify the right of the Minority to 
participate in staff depositions, protections for witnesses, 
provisions for notice, among other things.
    I understand, Mr. Burton, that your committee has 
accomplished this task today. We have also insisted that a 
special resolution from this committee be consistent with past 
precedents, be consistent with House rules, and that the 
committee rule be consistent with House rules.
    All of these requirements have clearly been met, and I have 
personally gone over that committee rule myself.
    The staff deposition authority provided by this House 
Resolution 167 which I introduced 2 days ago is consistent with 
10 House precedents in major congressional investigations 
dating back to 1974 and addressing investigations of Republican 
and Democrat administrations. The limited ability to seek 
evidence overseas also contained in this resolution conforms 
with at least eight provisions in previous congressional 
investigations dating back to 1975.
    Because of the reluctance of some to cooperate in this 
perfectly legitimate probe and the outright refusal of others 
to testify, the committee needs staff deposition authority to 
swiftly and confidentially receive evidence.
    Because certain potential witnesses may have left the 
United States, the committee needs the ability to gather 
evidence on an international basis. Certain campaign 
contributions originated overseas as well, and this presents a 
problem for those seeking evidence.
    It was my belief in crafting this resolution that any 
resolution granting special investigative authority to Chairman 
Burton's committee should take some recognition of the fact 
that this is an international scandal. The resolution is 
consistent with the precedents and entirely appropriate given 
the nature of the scandal. The rights of the Minority have also 
been protected, and we have seen to it in the development of 
this resolution.
    I believe we should hear the testimony today to ensure 
Members on both sides that they are satisfied and we can move 
to markup tomorrow, which, incidentally, Mr. Moakley had 
requested that we not have a markup on the same day that we 
held the hearing, and that is why we will be meeting tomorrow 
at 1 o'clock to mark up this resolution and then bring it to 
the floor some time soon.
    With that, I would yield to my good friend, Mr. Moakley, 
for any statement that he might have.
    Mr. Moakley. No, I don't have any opening statement. The 
only thing, when you say the Minority is protected, the only 
story--and I am not on the committee and I don't know, but the 
issuing of subpoenas without consulting with the Minority, if 
that is so, it doesn't seem to me the Minority is being 
protected, Mr. Chairman.
    The Chairman. Well, there is nothing in this resolution 
that doesn't follow precedents from both Democrat and 
Republican Majorities in this House over the last 25 years, and 
I have seen to that. Not once do we fall away from those 
precedents.
    So why don't we take the testimony.
    Mr. Moakley. Could I just ask one more question? Can you 
inform me of one investigation where the Majority issued 
subpoenas without consulting with the Minority?
    The Chairman. Let me just refer to it--okay?--which I will 
be glad to do if I can find it in our reports here.
    President Nixon impeachment proceedings, 1974; Koreagate, 
1977; Abscam, 1981; Judge Hastings, 1987; House Assassinations 
Inquiry, 1977; Iran-Contra Committee, 1987; October Surprise 
Task Force, 1991; White House Travel Office, 1996; Bosnia 
Select Committee, 1996; and it goes on and on and on.
    Mr. Moakley. You are not answering my question, Mr. 
Chairman.
    The Chairman. I will let Mr. Burton answer.
    Mr. Moakley. Do you know anywhere the Chairman issued a 
subpoena without--I am not talking about depositions, I am 
talking about where they issued a subpoena--without consulting 
with the Minority?
    The Chairman. It is allowed under the rules of the House, 
yes.
    Mr. Burton.
    Mr. Moakley. Do you know, yourself?

STATEMENT OF THE HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Burton. Before I go into my prepared statement, let me 
say we have issued no subpoenas, not one, without consulting 
with or advising the Minority. Mr. Waxman has been informed. He 
is given 24 hours notice before we issue any subpoenas. We ask 
for his input. He has given us input on certain occasions, but 
most occasions he has not. Any letters we send out requesting 
documents, we give the Minority at least 24 hours notice. We 
consider that consulting with.
    We may not take their advice, but the fact of the matter 
is, he does have an opportunity to call me. We have talked on 
occasion. He is informed before I ever send a subpoena out. 
That will continue to be the practice.
    Mr. Moakley. I haven't talked to him. Just what I was 
getting in the newspapers.
    Mr. Burton. That is not correct.
    Mr. Moakley. Fine.
    The Chairman. Just a minute, Dan. I just want to read to 
you from the rules of the House. It is rule XI. The power to 
authorize and issue subpoenas under subparagraph 1(b) may be 
delegated to the Chairman of the committee pursuant to such 
rulings and under such limitations as the committee may 
prescribe.
    And it goes on and on.
    Mr. Burton. That is right. That is correct. But as a 
practice, we have informed the Minority of every subpoena that 
has been sent out. We made that a practice, even though we had 
the authority to do otherwise. We wanted them to know what was 
going on.
    Mr. Chairman, I have about a 10- or 12-page statement, and 
I was trying to cross out things that I think--so I could get 
through this more quickly--but I think it is important for the 
committee to hear all of the reasons why that is important. So 
if you will please bear with me, I apologize for taking so much 
of your valuable time.
    I appreciate the opportunity to come before this esteemed 
panel today to discuss the Government Reform and Oversight's 
needs for certain investigative tools so that we can proceed 
with our investigation into various matters of great concern.
    Among other things, the Government Reform Committee is 
investigating reports of improper political fund-raising, 
misuse of official resources, alleged interference and 
obstruction of ongoing Government investigations, and other 
potential illegal acts which fall within our committee's 
jurisdiction.
    Because of the serious matters under investigation by my 
committee, I am here today to request that this panel favorably 
report to the full House a resolution which will empower the 
Government Reform and Oversight Committee with authority to 
conduct discovery at home and abroad.
    Mr. Chairman, the issues that my committee is investigating 
go to the heart of our free society. Our Constitution, 
painstakingly drafted by men who feared the tyranny of despots, 
devised a political and social system around which American 
lives are ordered.
    At its core, our investigation is about the possible abuse 
of power and authority by those trusted to safeguard our 
national security, and this may be about the largest systematic 
and coordinated effort to funnel illegal funds into our 
national elections.
    We have begun and, with your help, will continue to get 
answers concerning whether the fundamental integrity of our 
Government has been abused, exploited, compromised, or 
jeopardized. The American people have the right to know whether 
our system of free and fair elections, revered throughout the 
world, was infiltrated by possible foreign sources.
    Did the Communist Chinese Government or individuals 
associated with the People's Republic of China attempt to 
influence the 1996 Presidential election?
    Was the Democrat National Committee a willing participant 
in a scheme to receive laundered foreign money, or was it 
merely grossly negligent in taking millions of dollars of 
illegal campaign contributions from foreign elements?
    Was the United States national security compromised or 
endangered in any way by the infamous Mr. John Huang, who 
apparently had access to top secret briefings and information 
before and after he became a deputy assistant secretary of 
Commerce and then Vice Chairman of Finance at the DNC?
    Did the President's friends, acquaintances, and benefactors 
work to secure former Associate Attorney General and best 
friend of President Clinton, Web Hubbell, his silence, by 
providing him lucrative consulting jobs, including a $100,000 
or more payment from the Lippo Group, the huge Indonesian 
conglomerate and employer of John Huang?
    Did the Immigration and Naturalization Service radically 
change its naturalization policy in order to boost Democrat 
voter rolls even though some were convicted felons?
    Did White House officials use Government funds for 
political purposes when it spent over $1 million of taxpayers' 
money on the White House database?
    Why have so many of the subjects of our investigation taken 
the 5th Amendment or fled the country, even though the American 
people have been told that no wrongs have been committed?
    These are just a few of the important questions the 
American people have a right to have answered.
    In order to fully investigate these and other important 
issues, the Government Reform and Oversight Committee requires 
the ability to engage in the discovery process both here and 
abroad.
    You should know that nothing in the resolution before you, 
as you said, is unprecedented. All of the investigative tools 
contained in the resolution have been utilized by Democrats in 
preceding Congresses.
    In major wide-ranging congressional investigations such as 
this, the White House has historically provided deposition 
authority to facilitate the fact-finding process. You may 
recall that the chairmen of various investigative committees 
were authorized by House resolutions to subpoena, as the 
Chairman said, witnesses to take part in depositions, staff 
depositions in the Nixon impeachment proceedings, the 
assassinations investigations, Koreagate, Iran-Contra, and 
October Surprise. In fact, the chief counsel of the Iran-Contra 
and October Surprise Committees were empowered to issue 
deposition notices.
    I can assure this committee that will not be the case in 
our investigation, and I will remain accountable and will 
personally issue all subpoenas in this investigation.
    Staff depositions are an intricate part of our effort to 
uncover the truth. The committee has received thousands of 
pages of documents and has begun to piece together the 
intricate web of potential fund-raising illegalities.
    The committee is at a point where it requires sworn 
testimony which will be taken in executive session of those 
with firsthand knowledge of schemes to funnel conduit payments 
to politicians and national party organizations.
    Because of the potential political and criminal 
implications, few have voluntarily come forward to assist with 
our inquiry. The committee must be able--must be able--to 
obtain the testimony of those who would not otherwise be 
inclined to volunteer.
    Also, there have been numerous inconsistencies between and 
among witnesses on a number of key matters under investigation. 
Providing a format of sworn deposition testimony allows the 
com- 
mittee to best evaluate the veracity of various witnesses and 
clarify the events in question.
    Because of the wide-ranging and ever expanding scandal, we 
may need to depose hundreds of witnesses, and I mean hundreds. 
Needless to say, it is impractical and unrealistic to expect 
members will be able to be present and engage in time-consuming 
deposition preparation as well as the depositions themselves.
    We polled our committee, I might tell you, and asked how 
many would be willing to sit through the hundreds of hours 
involved in the depositions, and very few were willing to 
commit to that. It is a long and arduous process which has been 
used in numerous House investigations to uncover the facts.
    The deposition authority contained in the resolution will 
assist the Committee on Government Reform and Oversight in 
obtaining sworn testimony quickly and confidentially without 
the need for lengthy and unproductive hearings.
    One of the things I want to point out is, before we can get 
to our hearings--and the Chairman of the Senate committee is 
finding the same problem--we have to depose a number of 
witnesses so we are prepared for the hearings. We are not at 
that point yet.
    I also want to assure that the Minority will be adequately 
protected. Therefore, my committee today passed new committee 
rules in anticipation of your efforts and final passage of the 
resolution on the floor. I will consult with the Ranking 
Minority Member, as I said to the Ranking Minority Member of 
this committee, on any depositions we are about to take, and I 
will make sure all members know at least 3 days in advance that 
a deposition is scheduled. Such a provision was never etched in 
the rules of either Iran-Contra or October Surprise. They 
didn't have the 3-day rule. It will afford the Minority and 
witnesses ample time to prepare for the deposition.
    Furthermore, all the evidence received pursuant to the 
resolution will be taken in executive session.
    Similar to the authority to conduct depositions, the 
committee is seeking the authority to engage through official 
Government channels extraterritorial discovery. Because we 
think evidence we need may be in countries like Indonesia, 
China, Thailand, and other countries, the committee requires 
authority to seek out physical and testimonial evidence from 
persons or entities in other countries. This is usually done 
through judicial and international discovery devices known as 
letters rogatory or commissions.
    The Iran-Contra and October Surprise committees were 
granted these authorities, and various other special 
investigative committees used some or all of these 
international discovery devices.
    A few countries, under certain circumstances, allow 
depositions to be conducted by U.S. officials in the same 
manner they are conducted in the U.S. However, most civil law 
countries do not allow this type of compulsory and broad 
discovery conducted by foreigners, particularly if the person 
being deposed is not a U.S. citizen.
    Thus, successful international discovery is obtained 
through commissions or letters rogatory. I will not go into 
great detail on this subject, because I understand you received 
a briefing from the Congressional Research Service on this 
subject last week. However, I would like to summarize the 
issues.
    For those of you who are not attorneys, a commission is a 
warrant or authority issued from the executive branch or court 
empowering the commissioners to exercise jurisdiction or 
perform certain official acts such as conducting depositions in 
a foreign country.
    The commissioners, who are the people asking the questions, 
are usually consular officers or appropriate officers of the 
foreign government in which the questioning will take place. 
Such questioning is usually done pursuant to the law of the 
sovereign. However, where the United States has entered into 
bilateral treaties and international evidence conventions with 
a given country, the rules of the treaty or convention apply.
    When the foreign country prohibits the taking of 
depositions regardless of voluntary cooperation of the witness, 
the evidence must be obtained pursuant to a letter rogatory. A 
letter rogatory is a request from a court in the U.S. addressed 
to a foreign court which sometimes passes through diplomatic 
channels, such as the Department of State, to perform some 
judicial acts, such as the taking of evidence or serving a 
summons or subpoena. These international devices are similar to 
depositions which are used domestically. They may be critical 
in obtaining information from entities outside of the U.S.
    Mr. Chairman, in summary--and I am sure you are glad to 
hear this--in summary, let me again thank you for giving me 
this opportunity to testify on this important issue. I 
appreciate your assistance and the help of the entire Rules 
Committee in passing an equitable resolution, modeled after 
resolutions which have been passed in preceding Congresses, 
that will allow the Government Reform and Oversight Committee 
to conduct a fair and thorough investigation.
    I want to publicly thank the staff of the Rules Committee, 
the Office of the Parliamentarian, the Office of Legislative 
Counsel, the Congressional Research Service, and my staff for 
working together to draft this critically needed and fair 
resolution.
    This is an important issue, and your work here today will 
help move our investigation forward so that we can learn the 
truth surrounding the continuing allegations of campaign 
finance improprieties and possible violations of law.
    Once again, I want to thank you, Mr. Chairman. If you have 
any questions, I will be glad to answer them.
    [The prepared statement of Mr. Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T7094.239
    
    [GRAPHIC] [TIFF OMITTED] T7094.240
    
    [GRAPHIC] [TIFF OMITTED] T7094.241
    
    [GRAPHIC] [TIFF OMITTED] T7094.242
    
    The Chairman. Dan, thank you very, very much.
    We will go to Mr. Waxman.
    Henry, I had some flattering things to say about you before 
you arrived.
    Mr. Moakley. Not many, Henry.
    The Chairman. They were pretty flattering. We have great 
respect for you.

  STATEMENT OF THE HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much.
    I apologize, Mr. Chairman and members, for being late. We 
just got out of our long marathon meeting today on this very 
issue.
    The Chairman. Your entire statement will appear in the 
record, without objection. Go ahead.
    Mr. Waxman. Mr. Chairman--and the other members will not 
mind--I wanted to particularly address my comments to you. For 
years when you were in the Minority, you were one of the most 
eloquent of members in insisting on Minority rights.
    I must tell you that what happened today in the Government 
Reform and Oversight Committee is an abomination and should not 
be permitted. Let me first describe how the committee's 
investigation has been proceeding this year, and I will start 
with subpoenas for documents.
    When the Chairman's staff wants a subpoena issued, they 
urge the Chairman to do so. When he agrees, the Minority 
receives 24-hour notice that a subpoena will be issued. We can 
voice our objection to the Chairman if we disagree. But if he 
disagrees with our objections, the subpoena is issued 
nonetheless.
    That is why Craig Livingstone, who has nothing to do with 
this year's investigation, was issued a subpoena, and it is why 
the bank records of the history professor with an Asian name 
were subpoenaed despite the fact that he has done nothing wrong 
and is not even remotely involved in this committee's 
investigation. With Craig Livingstone, his legal fund was 
subpoenaed--the records.
    Under the current rules, the Majority never has to justify 
or make any public demonstration of the need for specific 
subpoenas. There are no institutional restraints of any kind. 
When the Minority wants a subpoena issued, we are required to 
make a request of the Chairman.
    And we appreciate the Chairman's decision to issue 8 of the 
38 subpoenas we asked for, but when the Chairman says no, as he 
did for the Minority's Haley Barbour subpoena request, that is 
the end of the process, notwithstanding the fact that we now 
know, according to the former president of the National Policy 
Forum, that Haley Barbour had a fascination with foreign money.
    We have no opportunity to appeal the Chairman's decision 
and debate it with all the committee members. In short, the 
committee has delegated all its authority to the Chairman and 
his staff. That is completely unprecedented.
    When we debated this issue in April, the Chairman could 
only cite four instances where a previous Chairman of any 
committee unilaterally issued subpoenas for documents. That 
precedent was Chairman Clinger in 1996.
    Today in committee we debated a different issue, issuing 
subpoenas for depositions. In this area, there isn't a single 
time that a Chairman of any committee ever unilaterally issued 
a subpoena for depositions.
    The committee Democrats argued today that we ought to 
continue that to be the case, where a Chairman doesn't have 
that single-handed power to issue the subpoenas for 
depositions.
    The Government Reform and Oversight Committee has only been 
given deposition authority once, once in all the time I have 
been here, and even before, since 1970, as far as our records 
go. That was last year in the Travel Office investigation. And 
in that case, Chairman Clinger proposed and adopted a rule that 
provided that subpoenas for depositions would only be issued if 
the Minority concurred or if there was a vote of the committee 
if there was a disagreement.
    In adopting that rule, Chairman Clinger noted that, "This 
new rule memorializes the long-standing practice of this 
committee to seek a consensus on the issuance of a subpoena."
    Today the Minority proposes to follow that precedent, which 
was adopted just last year, for the current investigation. We 
lost, and the Majority gave Chairman Burton the unilateral 
authority to issue subpoenas for depositions.
    Chairman Burton argued that he was following the precedent 
set by Representative Lee Hamilton in two other investigations. 
But Representative Hamilton informed us that he never issued a 
subpoena unilaterally and he interpreted "consultation" to mean 
all decisions would be made on a bipartisan basis.
    I have a letter from Representative Hamilton and ask that 
it be made part of the record.
    The Minority wouldn't have a problem if Chairman Burton 
committed to following that interpretation. We asked him to do 
so in our committee meeting, and he refused. Instead, the 
Chairman has made it clear he wants to use the Hamilton wording 
but not the Hamilton meaning. That doesn't wash here any more 
than it did when military dictatorships called their regimes 
democrats but provided no democratic safeguards. Actions 
mattered more than semantics.
    In effect, the committee has now delegated all its 
authority to subpoena documents, subpoena individuals, and 
release confidential information to the Chairman and his staff. 
That is a combination of powers no Chairman, no American, has 
ever had before. It is a dangerous and terrible precedent, and 
it should not be allowed to stand.
    The committee also rejected an amendment by Representative 
Condit that would have required our committee to at least 
consult with the Senate before taking depositions from the same 
people the Senate had already questioned. The amendment would 
have saved us money, spared witnesses from unnecessary 
intrusion, and prevented waste and redundancy. That amendment 
was defeated.
    Perhaps most incomprehensible of all, the committee voted 
to change the Clinger precedent of alternating rounds, where we 
would have questions by the Majority for an hour and then 
questions by the Minority for an hour.
    Please keep in mind that the only precedent our committee 
has for depositions is last year's Clinger investigation. The 
committee actions today mean that a witness who arrives at a 
deposition at 9 a.m. and must leave by 5 p.m. could be 
questioned by the Majority for 5 hours, 7 hours, or the entire 
day. There is no provision that the Minority will ever be able 
to ask questions because there may only be time for one round, 
and that is true if that deposition takes several days.
    This is one of the most unfair and outrageous procedures 
that I could imagine. It violates every rule for how we do our 
work and every precedent we have. I only ask that the Chairman 
consider how he would feel if he were in the Minority and this 
rule were adopted. We are making a tragic mistake by 
transforming what should be a serious investigation into a 
partisan side show.
    We all know the old expression that if it looks like a 
duck, walks like a duck, and quacks like a duck, it is a duck. 
The same is true of partisanship. In the committee's 
investigation, it feels, looks, and sounds partisan.
    Three years ago, Newt Gingrich said that if the Republicans 
wanted control of the House, they would aggressively use 
subpoena power, and he predicted: "Washington just can't 
imagine a world in which Republicans have subpoena power", end 
quote.
    Last year, the Republican leadership sent a memo to all 
committees, instructing them to focus their activities on 
investigating the Clinton administration, and in fact that is 
exactly what happened. This committee deposed 72 people for 
over 240 hours of questioning in the Travel Office 
investigation.
    By the way, they did that under the Clinger rules which are 
now being thrown aside.
    Last week, Speaker Gingrich told CNN that he was personally 
overseeing this committee's investigation. Let's look at what 
we are investigating. Today, the Chairman issued 282 subpoenas 
or requests for information from Democratic sources. He issued 
only 10 subpoenas or information requests from Republican 
sources. The Chairman has obtained 320,000 pages of documents 
from Democratic sources and has complained that those sources 
haven't been sufficiently cooperative.
    In contrast, the Chairman has obtained 15 pages of 
documents from Republican sources and, upon receiving them, 
released a press release praising the cooperation he had been 
given.
    Imagine what would be happening if we had discovered that 
Don Fowler, the former cochair of the DNC, had personally 
solicited foreign contributions, arranged to launder the 
contribution, forced the foreign contributor to default on a 
loan, and was described as being fascinated with foreign money. 
Can you imagine the outrage that would bring on the Majority 
side? Can you imagine the numbers of subpoenas that would be 
issued and the accusations that would be made? But when it is 
Haley Barbour, not done. Mr. Fowler, in that situation, we only 
hear silence.
    Mr. Chairman, we are spending millions of dollars in an 
investigation that has already lost credibility. Mr. Chairman, 
I started my remarks by saying I wanted to address them 
particularly to you. I know that there is a tendency when 
Democrats complain about partisan treatment to recite the 
crimes that the Democrats committed, and to some extent you are 
right to do so. But at some point we should stop keeping score 
and simply do what is right. What we did today would offend you 
deeply if you were in the Minority.
    Mr. Chairman, I ask that you deny our committee subpoena 
authority until our committee rules comport with fair 
procedures and House precedent, until they comport with the 
rulings that have been binding for every committee 
investigation from Watergate to Whitewater, Senator Thompson's 
committee, and every other investigation that has ever taken 
place.
    We don't need to toss out all the rules under which we have 
operated to give the Chairman this kind of power. It is 
offensive, it is partisan, and it is going to come back to 
haunt all of you if you go ahead down that path. I urge you to 
defeat this proposal.
    The Chairman. Mr. Burton and Mr. Waxman, first of all, we 
are here, this is a hearing, not on your committee rule. This 
is a hearing on House Resolution 167, and I don't know if you 
had a chance to look at it. That is what you are here to 
testify on.
    But what this does is give staff deposition authority. It 
cites that we designate a member of the committee or an 
attorney on the staff, and I insisted that it be an attorney on 
the staff, because people that are not attorneys, like myself, 
probably are not aware of all of the nuances in the law, and 
therefore I think it should be an attorney on the staff.
    So we designate a member of the committee or an attorney on 
the staff of the committee to conduct any such proceeding, 
okay? That is number one. That is what this resolution before 
us does.
    Number 2: It allows the taking of depositions and other 
testimony under oath anywhere outside the United States. That 
is important for information gathering. That is what this 
resolution is all about.
    Number 3: It makes application for issuance of letters 
rogatory and requests, through appropriate channels, other 
means of international assistance, as appropriate.
    I don't have to explain to you what letters rogatory is. It 
means we can either go through the State Department trying to 
intervene in foreign courts or go through our own courts trying 
to intervene in foreign courts to obtain evidence. Those are 
the three things that resolution before us today gives.
    In terms of subpoenas, the committee has the same authority 
it had in the 103rd Congress under Mr. Conyers; it has exactly 
what the committee had in the 104th Congress under the 
Republican chairman Mr. Clinger; and it is exactly what the 
committee adopted earlier this year in February.
    Now, let me just cite to you, we do nothing in H.Res. 167 
about the issuance of subpoenas. Before you arrived, I cited 
rule XI which states that the power to authorize and issue 
subpoenas under subparagraph 1(b) may be delegated to the 
chairman of the committee pursuant to such rules and under such 
limitations as the committee may prescribe. And it goes on.
    But in two previous Congresses and the current Congress, 
the authority to authorize and issue subpoenas was provided in 
House rules to the committee, which further allows the 
committee to delegate the authority to the chairman by a 
committee rule.
    Now, when Mr. Burton approached this committee about giving 
him this kind of staff deposition authority and this kind of 
information-gathering authority and the letters rogatory, I 
told Dan, and so did other members of this committee, that his 
committee resolution must conform with House rules. It cannot 
vary, because we will not allow variations.
    And we had many discussions on this, because Mr. Burton and 
I feel very strongly about this. As a matter of fact, I get 
extremely upset when I find out that there is someone that has 
been in the employ of our State Department who has been given 
unbelievable clearances without any investigation whatsoever. 
And then I find out that that individual has been taking 
classified information, at the Commerce Department and at the 
State Department and at the White House, and immediately 
thereafter contacting a foreign organization, a foreign 
corporation by the name of Lippo, which is an Indonesian 
incorporated company, and then passing that information on 
directly to the Chinese Embassy.
    I think that is outrageous. And we are going to get to the 
bottom of it. However, in doing so, we are not going to give 
your committee anything beyond what they have had before, and 
we are insisting that whatever you do in your own committee 
resolution complies with House rules.
    Those are the facts. That is what we are here today to 
consider. I would like to have your comments on this resolution 
before us today.
    Mr. Waxman. I will give you my comments. That resolution is 
premised on the committee's rules under which they are going to 
consider these subpoenas and the deposition authority. And 
every instance you cited where you have given subpoena 
authority for deposition purposes to our committee was done on 
a bipartisan basis. And the rules under which we operated were 
the rules that Chairman Clinger proposed and were adopted by 
the committee.
    Cardiss Collins, the Ranking Member at that time, came 
before you. We all went to the House floor together on a 
bipartisan basis to seek the authority under those rules.
    I don't think you ought to give deposition authority unless 
we have rules that are the Clinger rules that were fair. I 
don't think this ought to be done on a partisan basis.
    And knowing what we did today, by your giving deposition 
authority, you are, in effect, giving deposition authority to 
Mr. Burton, and Mr. Burton alone, and his staff, because the 
committee, on a partisan basis, delegated all that authority to 
him. If that is what you want to do, it is your decision. But I 
think it is offensive in terms of process, I think it is 
offensive in terms of doing a serious investigation.
    Mr. Waxman. [Continuing.] I want a serious investigation. I 
called for an independent investigator on the White House. They 
weren't happy about that. But I said, let's get to the bottom 
of campaign finance abuses on both sides of the aisle. Let's do 
this job in a way that has credibility.
    And I look at what is happening now and it is a partisan 
food fight.
    We can continue down that road, and the American people 
will look at this investigation with the credibility it 
deserves, zero.
    The Chairman. Henry, let me just respond briefly. You know 
House rules, and that committee rule you passed today, which I 
read before you passed it and compared it to make sure that it 
did not exceed precedent--in other words, demands that the 
Minority be present at any of this.
    So whatever problems you have to work out with your 
Chairman and with the other members of your committee you can 
do so, as long as they comply with House rules. That is what we 
insist on doing.
    Mr. Burton?
    Mr. Burton. Real briefly, Mr. Chairman, rule 7.1 in both 
the Iran-Contra and October Surprise is consistent with what we 
did today regarding deposition authority. There is no 
difference whatsoever.
    I don't understand the dismay of my colleague. I will just 
tell you there is precedent for this, and we are not doing 
anything that hasn't been done before.
    The Chairman. Mr. Moakley?
    Mr. Moakley. Mr. Burton, according to the Washington Times 
today, it said you plan to seek 150 to 200 depositions from 
witnesses. Do you intend to issue subpoenas in all these 
matters?
    Mr. Burton. Mr. Hamilton, who Mr. Waxman alluded to a 
moment ago, had this same subpoena authority that we have, but 
he didn't have to use the subpoena authority because the people 
he wanted to depose knew that they were going to be subpoenaed 
if they did not come in voluntarily. I would assume the same 
thing will happen with us.
    I will assume that when people are asked to come in, there 
will probably be more than 200, I think almost all of them will 
come in without the issuance of a subpoena. If we have to issue 
a subpoena, we will, but I don't think it will be necessary.
    Mr. Waxman. May I respond to that?
    Mr. Burton. Sure.
    Mr. Waxman. Mr. Hamilton's committee on Iran-Contra issued 
loads of subpoenas. You would get the impression they didn't 
have to issue subpoenas because everybody knew they had 
subpoena authority and, therefore, the witnesses complied. They 
issued lots of subpoenas; I don't have the exact number, but no 
subpoena was issued without its being done on a bipartisan 
basis with concurrence of the Minority.
    We are not asking for veto authority. That is not the way 
any committee has ever operated. If there is a disagreement, 
you can go to the committee.
    Now, this is a Majority Republican committee, and if they 
want to vote us down on a partisan basis, they can do it. But 
at least you have the chance to make a public argument why 
somebody shouldn't be subpoenaed or why somebody should be 
subpoenaed, and let the Members decide.
    Instead, the Members are being denied that opportunity. 
There is no concurrence that is going to be required, even 
though that was the spirit under which Chairman Hamilton 
operated the Iran-Contra investigation.
    Mr. Burton. Can I just speak? I think it is important to 
make this point.
    We are probably going to depose anywhere from 150 to 300 or 
400 people. Now, if we have to come before the committee every 
single time we have to get a subpoena, I can tell you we had a 
6-hour meeting today, we had a 6-hour meeting on our protocol, 
and every single time that we want to get a subpoena where the 
Minority doesn't want us to, we will be there for 6 hours. You 
multiply 6 hours times 300 or 400 subpoenas, and we are never 
going to get to the bottom of this investigation.
    That is the problem that Mr. Waxman is not going to 
address, the continued resistance to us getting to the bottom 
of this investigation. They fought us every step of the way, as 
has the White House, and we had to even threaten a contempt 
citation on the President's Chief Counsel before we could get 
documents out of the White House.
    So all I am saying is, as a matter of expediency, if we are 
going to get to the bottom of this investigation and get 
through it, we are going to have to do the job. We can't be 
arguing over every single subpoena before the committee. It 
just isn't workable.
    Mr. Waxman. If the rules were the Clinger rules--that is, 
under which we operated last year at a time when Democrats were 
at it with Republicans at each other's throats, yet we had 
ground rules to follow.
    Sometimes you don't go to the expediency, you go to follow 
the rules that protect everybody, and then you go through with 
the rules. And the committee did its investigation on the 
Travel Office and the committee did its investigation on the 
FBI files, and we followed the rules that Chairman Clinger put 
in place, and they worked well. No one cited a single instance 
where they didn't work so that we had to dump them and give 
Chairman Burton all of this authority.
    My argument is, don't give subpoena authority unless we 
have got the Clinger rules in place. Those were fair then, they 
are fair now, and you shouldn't let them be removed from the 
committee's jurisdiction.
    Mr. Moakley. Mr. Chairman, I still have the time?
    The Chairman. Yes.
    Mr. Moakley. Dan, am I getting the opinion you are just not 
going to be bothered to have meetings to issue subpoenas, that 
you have to get on with the work? You think the meetings to get 
the subpoenas just get in your way?
    Mr. Burton. My good friend, Mr. Moakley, let me just tell 
you that we are talking about hundreds of depositions before 
this is over. Every single day, we find more people that may 
have been involved or have knowledge about illegal foreign 
contributions.
    Mr. Moakley. I can imagine that.
    Mr. Burton. The reason I am prefacing my remarks is by 
saying, I can tell you, because of what has happened so far in 
our hearings and our investigation, that we would probably have 
to fight over a majority of the subpoenas; and we simply don't 
have the time or the luxury of time to do that and get to the 
bottom of the investigation.
    It is not that I wouldn't like to have these hearings; it 
is just that I think it is going to be a dilatory tactic 
employed to keep us from getting to the bottom of it.
    Mr. Moakley. I think that is a basic individual right to 
have a meeting on every subpoena you issue. I would hate to be 
someone who gets a subpoena issued by a Chairman who just 
didn't have time to go to the committee and explain why he was 
getting a subpoena.
    Mr. Burton. It is not a question of just having the time. 
It is a question of dilatory tactics being employed to keep us 
from doing our job.
    I do not issue subpoenas indiscriminately. We give every 
single subpoena a lot of thought. I notify Mr. Waxman at least 
24 hours--he is going to get 3 days' notice, 3 days' notice 
before we issue a subpoena regarding a witness coming in for 
deposition.
    Mr. Moakley. Mr. Chairman, I am in receipt of a letter sent 
by Lee Hamilton to Henry Waxman dated June 16, 1997. I would 
like to read from it and then submit the rest of it for the 
record.
    "I am concerned that the term `consultation' has come to 
mean less than it should over time, both as it applies to the 
Executive-Legislative discussions on foreign policy and with 
respect to discussions between majority and minority in the 
legislative branch in the context of investigations. It is my 
view that, used appropriately, consultation provides the 
foundation for a credible bipartisan investigation, and in the 
context of relations with the Executive, makes better and more 
enduring U.S. foreign policy."
    "I want it to be very clear about how I view the practice 
of consultation for both Iran-Contra and October Surprise 
investigations. As a matter of practice in the Iran-Contra 
investigation, the four Congressional leaders of the Select 
Committee--Senators Inouye and Rudman, Representative Cheney 
and I--made decisions jointly on all matter of procedural 
issues, including the issuing of subpoenas and the taking of 
depositions. I do not recall a single instance in which the 
majority acted unilaterally. In fact, I do not recall a single 
instance in which our decisions were not unanimous. With 
respect to the October Surprise Task Force, I followed a 
similar approach with Henry Hyde. The Chairman and Ranking 
Member often were briefed together by the majority and minority 
counsel of the task force. Again, I do not recall issuing a 
single deposition notice without Henry's concurrence."
    Mr. Chairman, I ask unanimous consent to put this entire 
letter in the record.
    The Chairman. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7094.243
    
    [GRAPHIC] [TIFF OMITTED] T7094.244
    
    The Chairman. I would like to respond. I am somewhat 
surprised to see that letter from Lee Hamilton, who I have a 
great deal of respect for. I am citing from the Iran-Contra 
rule 7.1, which Mr. Hamilton requested before this committee, 
and it states, "Unless otherwise determined by the Select 
Committee, the Chairman upon consultation." Mr. Lee Hamilton is 
complaining about the word "consultation," yet he asked for it.
    Let me continue. "The Chairman, upon consultation with the 
Ranking Minority Member or the Select Committee, may authorize 
the taking of affidavits," and it goes on. It was done not only 
then, but October Surprise and regularly on all of these 
investigations.
    I think the gentleman protests too much. I would like to 
see us move on with this.
    Mr. Moakley. Mr. Chairman, Mr. Hamilton viewed consultation 
as concurrence. Wait a minute. He--
    The Chairman. I would like to use Webster's dictionary.
    Mr. Moakley. He never once used the consultation.
    The Chairman. I would hope Mr. Burton wouldn't either, 
except we happen to deal with investigations that we have 6 
known people that have left the country to avoid a subpoena and 
avoid testifying. We have another 12 who are now taking the 
Fifth. You know what happens when you take the Fifth; it means 
there is a smoking gun someplace.
    Mr. Moakley. I don't drink.
    The Chairman. You don't drink. I don't drink either.
    Mr. Moakley. I just think every person has a right to at 
least feel that there has been a hearing on whether the 
subpoena should be issued or not.
    The Chairman. Mr. Moakley, let me tell you something. I 
recall sitting with Dan Burton on the first day he arrived in 
Washington, a number of years ago down in the gymnasium, and he 
sat down next to me, and I talked with him and we talked for 
about 45 minutes, and I said to myself, you know, he sounds 
just like Jerry Solomon. He is a guy that wants to get out 
there and get the job done.
    Mr. Moakley. Now I know I am in trouble.
    The Chairman. Ever since that time, he has been conducting 
himself just like Jerry Solomon, and I am proud of it.
    Mr. Burton. And I am not even a Marine.
    The Chairman. I take exception to the criticism.
    Any further questions?
    Mr. Moakley. Yes.
    The Chairman. Your time is almost up. I will certainly 
treat you with great respect.
    Mr. Moakley. Thank you. In fact, as you may recall, when I 
was Chairman, Mr. Chairman, I never limited your time. We went 
on for hours and hours into the night listening to your 
criticism of the tyrannical way I ran the committee.
    The Chairman. Well, you believed in setting a precedent, 
and I don't believe in that. I think we have to stick to 
precedent.
    Mr. Moakley. All right.
    Dan, last year's investigation, all information received by 
your committee was obtained in informal interviews; not one 
single sub- 
poena was issued. Have you asked anyone at the White House to 
submit an informal interview yet?
    Mr. Burton. Before we ask anybody to come before the 
committee or sit for a deposition, we will ask them. We will 
not issue a subpoena until they have showed a reluctance to 
appear voluntarily.
    Mr. Moakley. Now, last year during the Travelgate hearings, 
my Chairman, Mr. Solomon, stated that the Rules Committee would 
only grant authority for staff to take sworn depositions--I am 
quoting here--"in very special circumstances where there is a 
compelling need for such authority."
    Chairman Clinger argued that it was needed at that time, 
because of the reluctance or even the refusal of certain 
potential witnesses to voluntarily cooperate in submitting to 
staff interviews.
    I would like to hear from you, Dan and Mr. Waxman, if 
witnesses up to date have refused to provide interviews for the 
committee staff. If not, what is the compelling need for new 
authority?
    Mr. Burton. Let me just say that Chairman Solomon has 
pointed out that Mr. Middleton, Mr. Hubbell, Mr. Huang--I want 
you to listen to this--Mr. Middleton, Mr. Hubbell and Mr. Huang 
have all taken the Fifth Amendment. Mr. Trie, Ms. Kanchanalak 
and the Riadys have all fled the country.
    So I think that it is pretty evident that we are going to 
find a reluctance on the part of some to testify.
    Mr. Moakley. Mr. Chairman, at this time I don't want to 
take up all the time now. I would like to let you go on with 
other people, but I would like to go back to Mr. Waxman later.
    The Chairman. You will reserve your time.
    Mr. Waxman. I do want to respond, and I will address this 
to the Republicans. I am simply asking that the committee 
follow the rules that Chairman Clinger put in place for 
deposition authority, for subpoenas. That was the only time our 
committee in its history ever held a deposition, they had 
subpoenas for depositions. We followed those rules. I know of 
no problems with it--or we followed the rules that Chairman 
Hamilton had where he called for consultation, but the 
interpretation of "consultation" was that the interpretation 
that almost all committees have used--in fact, all committees 
have used where they get concurrence because it is much better 
to do any investigation on a bipartisan basis.
    Republicans have always argued rightfully, you don't want 
big government intruding in people's private lives. You know 
what it means to be subpoenaed to come in to give a deposition 
where some staff lawyer can ask about your sexual preferences, 
your drug use, your political beliefs, your business dealings, 
your tax records, anything in the world? Nothing can be more 
intrusive than that. And you have to hire a lawyer as soon as 
you get a subpoena. You have to give up your working time to be 
there.
    This is really big government, and at least if you are 
going to have something like that where it is necessary, it 
ought to have some checks and balances and restraints and 
follow the precedents, and the precedents were the precedents 
that Mr. Clinger put in place in our committee. That was our 
precedent. It is now being put aside.
    The Chairman. Let me recognize Mr. Goss and ask him to take 
over. I have to go in the next room and try to resolve the DOD 
rule. We were going to come back here at 8 o'clock. I think we 
better delay that to 8:30. I know you have family, but at any 
rate, Mr. Goss, if and when they do finish here, if you would 
just recess subject to the call of the Chair around 8:30.
    Mr. Goss. Any other witnesses?
    The Chairman. No, just these two, but there are questions, 
and I will be back.
    Mr. Burton. Thank you, Mr. Chairman.
    Mr. Goss. [Presiding.] I, in fact, have other questions, 
but I think I will continue yielding. In the rotation it is Ms. 
Pryce.
    Ms. Pryce. I have no questions. Thank you for the 
opportunity.
    Mr. Goss. Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. I guess I didn't hear. 
Are we going to stay in until 8:30 or come back?
    Mr. Goss. No, we are not. We are going to finish up with 
these two witnesses, and then we are going to recess subject to 
the call of the Chair, and we expect the Chair to call us at 
8:30.
    Mr. Hall. Okay. Well, maybe I wasn't listening, but I 
didn't know how you answered Mr. Burton when Mr. Waxman said, 
is there going to be any consultation on the subpoenas that are 
going to be issued? Are you going to be talking together about 
this?
    Mr. Burton. My staff thinks I am forgetting. Mr. Hall, let 
me just tell you, we have sent every single subpoena and every 
single letter where we were asking for information to Mr. 
Waxman at least 24 hours before we did anything.
    Regarding the deposition authority, he is going to have 3 
days' notice before we issue a subpoena for deposition, and we 
welcome his input. That does not mean that we are going to give 
him veto power on whether or not we issue the subpoena, but we 
welcome his input.
    Regarding the Young brothers, who laundered money, we 
believe, through a shell corporation to the RNC, Republican 
National Committee, in Miami, the Young brothers we subpoenaed, 
and we held up the subpoenas for a number of days because we 
wanted Mr. Waxman to have time to review them and his staff and 
to give us input, and he did.
    But we held them up for an inordinate amount of time 
because we were waiting for his reply and response. Yes, we 
have consulted, and we will continue to.
    Mr. Hall. What is taking so long to get this thing started? 
I mean, there has been an unprecedented amount of money that 
has been appropriated to this committee. It is unbelievable the 
amount of money that you have at your disposal, and the fact is 
this is now the third week in June, we haven't had one hearing 
on this yet. Why is that?
    Mr. Burton. I will be very happy to explain why it has 
taken so long. Mr. Moakley might even be interested in this.
    Mr. Moakley. I would be.
    Mr. Goss. Sorry, I was conferring with Mr. Moakley.
    Mr. Burton. That is all right. We have been trying for 
months to get the White House to give us documents that were 
relevant to the investigation, and we were told that the only 
way we could get those documents was to have our staff go down 
to the White House and sit there and go through these 
documents, and then if we needed more information, we would 
have to go back there a second time and a third time and a 
fourth time. And so we were in a confrontation with Mr. Ruff 
and the White House staff in trying to get documents for some 
time.
    And I had to confer with my staff, I had to confer with 
leadership before we started to move a contempt citation, and 
that took time. We could be much further along with the 
investigation if we had not had that kind of impediment to deal 
with. Once we finally convinced Mr. Ruff that we were serious 
about a contempt citation, he gave us 10,000 pages of documents 
that we are reviewing so that we could go ahead and conduct the 
rest of our investigation. That was the first phase of our 
investigation. Now that we are past that, the next step is to 
start deposing witnesses that we have found needed to be 
deposed from those documents.
    Once you start going through the documents, you find people 
that may have been involved in illegal fund-raising and illegal 
laundering of money. When we find those people through looking 
at the documents we got from the White House and other sources, 
then we start asking those people to come in for depositions. 
That is the next step, and that is what we are doing right now.
    Mr. Waxman. Mr. Hall, I just wanted to point out that Mr. 
Burton and his staff got 320,000 pages of documents from 
Democratic sources. They got 15 pages from Republican sources. 
The subpoenas he indicated to you, consultation on the Young 
brothers, was at our request.
    Mr. Burton. That is right.
    Mr. Waxman. And we appreciated getting some of the 
subpoenas, but not all of the subpoenas we requested. 
Consultation as he is interpreting it means if he feels like 
going along with it, he will. After we raise an objection, or 
if he doesn't want to, he won't. All we get to do is get 
notice. We ought to change the rule to say "notice" because 
that is all basically we get is notice, and then we can let him 
know what our views are, and he will pay no attention.
    Mr. Hall. Just one last question, Mr. Goss.
    Dan, how do you follow up a question like that? It seems to 
be pretty unfair if you get 300,000-some pages.
    Mr. Burton. 300,000? I will be glad to respond.
    Mr. Hall. And 15 pages for Republicans.
    Mr. Burton. There is a very simple reason for that. First 
of all, he is incorrect. The 300,000 pages of documents we 
have, much of those came from sources like the telephone 
company where we subpoenaed telephone records, not from 
Democrat sources; from credit card companies where we are 
subpoenaing credit card records and other documents pertaining 
to the investigation. They are part of the 300,000 pages, but a 
large part of them are documents that we got from sources 
outside of the people we are asking at White House.
    Regarding the Young brothers, those subpoenas are not due 
for another 2 weeks. We gave them an adequate amount of time to 
give us the documents we wanted. And the documents from the 
RNC, likewise they have given us some, and we expect more, and 
the due date is not yet up. So we expect that we will probably 
have several hundred or maybe several thousand pages of 
documents before the investigation is over with, but the time 
is not yet expired.
    Mr. Waxman. Three hundred thousand documents relate to 
Democratic targets of the investigation. The 15 relate to 
Republican issues or targets of an investigation. And our 
request for subpoenas on the Republican issues have not been 
complied with.
    For example, we asked Mr. Burton for subpoenas with respect 
to fund-raising on public property by Republicans. No response 
to that. Yet he has issued many subpoenas about fund-raising by 
Democrats on public property, particularly at the White House.
    We are not getting a fair shake. The rules are being tossed 
out. At least give the Minority a chance to come in and argue 
to a committee where there is a Republican Majority why we 
think an action ought to be taken or not ought to be taken. 
Instead we are being told we can't even make an argument to our 
colleagues. We can only make it to Chairman Burton. And I think 
that is unfair to have any one person have that kind of power. 
It is unprecedented, and it is dangerous, because people who 
have power sometimes start abusing it and think that what they 
do is worthwhile, and therefore maybe it is not an abuse. That 
is called corruption by power, and we have checks and balances 
in our system to keep that from happening.
    And we are dealing with people who are going to be 
subpoenaed in to come in and answer questions under oath for 
hour after hour, maybe day after day. I think we ought to 
follow the tried and true precedent. And I am just suggesting 
following the precedent that was put into place and the only 
time our committee ever held depositions, and that was last 
Congress, and the rules that were put in place were put in 
place by Chairman Clinger, and we had depositions of around 80 
people. We didn't have any problems. We had disagreements, but 
we all thought that we ought to have depositions of people who 
were appropriate to depose.
    Mr. Burton. If I might make one brief follow-up comment. 
Every single letter that we have sent to Mr. Waxman, almost 
without exception, and almost every subpoena except for the 
Republicans has been ignored. He has not chosen to respond, to 
give us any kind of input whether he thinks there should be 
something added to it or taken away. He assumes that we are 
going to go ahead and do whatever we want to without 
consultation. We may go ahead and not agree with him, but as 
far as us not consulting with him or not listening to what he 
wants to say or have a cooperative attitude, it just is not the 
case.
    Mr. Goss. I guess Mr. Hall is finished.
    Mr. Moakley. You must have answered his question. He left 
10 minutes ago.
    Mr. Burton. Tony, where are you?
    Mr. Goss. Ms. Slaughter.
    Ms. Slaughter. Dan, one thing in your request bothers me, 
and that is government workers not having access to 
departmental attorneys even if they are only talking about 
their duties and matters relating to their official duty, which 
means they have to go out and hire their own attorneys at great 
expense. And since we want more people coming forward 
voluntarily, wouldn't it be better if you were to allow them to 
have access to departmental attorneys so that they are not 
facing large financial burdens--it seems to me what you are 
doing makes it harder for people to come forward voluntarily.
    Mr. Burton. My staff reminds me that there is a Justice 
Department fund that can be used for staff to hire an outside 
attorney to come in and be their consultant or attorney when we 
take a deposition, and that fund was specifically set up to 
help protect Federal employees' rights.
    Ms. Slaughter. Wouldn't it be cheaper to have the 
departmental attorneys?
    Mr. Burton. The problem with the departmental attorneys if 
you read the Eighth Circuit report regarding the First Lady and 
her appearance before the Federal grand jury that Mr. Starr was 
conducting, the problem there was that they said that the 
attorney-client privilege did not apply because you cannot take 
a tax-paid attorney and claim that attorney-client privilege, 
and that is being contested and is now before the Supreme 
Court.
    We wonder if you have a person who has a tax-paid attorney, 
and they appear before our committee, and they consult with 
that attorney privately, whether or not the attorney-client 
privilege might apply so you might be jeopardizing that 
person's rights down the road if we--as we believe, the Supreme 
Court rules against the First Lady. We think that they probably 
will.
    Ms. Slaughter. Why would they be protected if the Justice 
Department pays for it?
    Mr. Burton. Because it is a private attorney that is being 
paid for.
    Ms. Slaughter. It wouldn't be tainted by the government's 
paying?
    Mr. Burton. I don't believe it would be, ma'am. It is the 
same as the Iran-Contra and October Surprise and Travelgate 
investigations, where they recognized the potential conflict of 
interest that could arise from having government lawyers 
represent private individuals, and all had provisions either 
prohibiting the practice or allowing the Chairman to decide.
    Ms. Slaughter. But here we have government lawyers 
protecting government workers, not private individuals.
    Mr. Burton. Well, I think I explained it. I think I have 
covered it. Maybe I didn't explain it to your satisfaction.
    Ms. Slaughter. You think that if the departmental lawyer 
was present in the room when you were deposing a Federal 
employee, that the departmental lawyer would have a conflict of 
interest? Is that your point?
    Mr. Burton. What I was saying--let's just say that we are 
going to depose somebody from the White House, and let's say 
that the Counsel's Office--the Counsel to the President says to 
the person that is about to be deposed, now we want you to take 
somebody from the Counsel's Office down there. We figured that 
might be an intimidating factor and might convince those 
persons when they are testifying before our committee that they 
may not want to tell us everything that they want to because 
they are sitting there beside somebody who has been ordered to 
attend from the White House's Counsel's Office. I think you are 
seeing what I am trying to get at.
    Ms. Slaughter. I do, but I think the most inhibiting thing 
in the world that has happened in Congress in the last few 
years is the extraordinary legal fees that have been run up by 
people who work for the government. They try to do a day's 
work, and it is nothing short of a disgrace, and I think lots 
of people have left here with debt up to their eyes. It strikes 
me as a way of really discouraging people from wanting to come 
forward. They have to go to the expense just to come in for the 
deposition, to have their own lawyer at their own expense.
    Mr. Burton. First of all, let me follow up by saying there 
are funds available that can be used for private attorneys.
    Ms. Slaughter. Can you tell me what the circumstances are 
for being able to use those funds?
    Mr. Burton. I will in a moment.
    And secondly, any person under civil law can be sued and 
face the same problems that you are talking about right now. 
You can be sued by your next-door neighbor for some crazy thing 
that really isn't reasonable and would have to defend yourself 
in a JP court or some court.
    Ms. Slaughter. Would I as a Member of Congress, if I were 
sued over something about my duties, would my fees be covered, 
or would I have to get an outside attorney?
    Mr. Burton. Right now, ma'am, I have an outside attorney 
because of an outside investigation, and I had to pay $25,000 
for him, so I think we are all at some risk.
    Ms. Slaughter. Okay. But I hope you understand my point 
that I think what we are doing is creating a whole system in 
Washington where attorneys are just making piles and piles of 
money, and people who literally are just there, trying to do a 
day's work, are finding themselves burdened.
    Mr. Burton. We are just being consistent with precedents.
    Ms. Slaughter. If you are going to depose everybody in the 
city and no limits whatever--
    Mr. Burton. We are not going to do that.
    Ms. Slaughter. We talked a lot about Mr. Hamilton. My 
understanding from Mr. Hamilton is that he interpreted the 
authority that was given him as if he required concurrence from 
the minority. And has any Chairman in the history of the House 
of Representatives ever unilaterally just done what you are 
asking to do?
    Mr. Burton. Well, I don't know what Mr. Hamilton's 
interpretation was. I do know what the rule was, and the rule 
is very clear. The rule that he asked for, as Mr. Solomon 
pointed out, is very clear, and that is he did not have to have 
any concurrence. All he had to do was consult, and that is all 
we are asking for is the same thing that Mr. Hamilton asked 
for, same identical language.
    Ms. Slaughter. But no Chairman has ever done this before, 
what you are asking?
    Mr. Burton. Well, we are asking for the same authority. I 
can't comment on every single investigation.
    Ms. Slaughter. It hasn't ever been used before. I looked.
    Mr. Burton. I don't know.
    Ms. Slaughter. That is all.
    Mr. Goss. Mr. McInnis.
    Mr. McInnis. Thank you, Mr. Chairman.
    First all, I would take exception with my good friend Mr. 
Moakley's statement, if I heard it accurately, that Mr. 
Hamilton felt that the word "consultation" was synonymous with 
the word "concurrence." It is not in the dictionary.
    Mr. Moakley. Will the gentleman yield?
    I know it was not in the dictionary. This was Mr. 
Hamilton's expression, and he did concur on all of his 
subpoenas and depositions.
    Mr. McInnis. And then, Mr. Waxman, I find I know you used 
some strong words about this and that. I cannot believe that 
you would demand that you be able to concur or to concur, 
assent, to every subpoena requested of the other side. In my 
opinion, the Minority has an absolute right to be heard, but 
the Majority has to rule. And what you are suggesting, as a 
former attorney, although I have been inactive for a number of 
years, I certainly don't remember anything that I ever had 
where I was required to consult with opposing counsel before I 
took some kind of action, not only just consult, but--excuse 
me, I take that back. I was required to consult on hearing 
times, but I certainly didn't have to have the concurrence of 
the other side to step forward. And frankly, you are in the 
Minority. The Majority rules. Same thing on the Floor. Can you 
imagine on the Floor if we had the requirement for concurrence? 
Consent? We don't. One side wins; one side loses, and so--
    Mr. Waxman. Let me explain--
    Mr. McInnis. I am not finished.
    My position is that especially after what I have witnessed 
with the White House, stall from this White House, I think that 
while you may be well-intended, there are other individuals if 
that power were given, equal power to both sides were given 
out, this thing wouldn't move 1 inch, not move 1 inch.
    Finally, I guess you kind of got my attention earlier in 
the remarks when you used Craig Livingstone as an example, 
whose name I saw reappear in the Tamraz pipeline, where a 
former security guard takes this guy out, one of the heavy 
hitters in the oil industry--how that connection was ever made 
I don't know--and makes an introduction for him in the 
Department of Energy. You used him as an example of a poor 
fellow being picked upon. It doesn't sell with me. And as far 
as I am concerned, you should be consulted with, but you 
certainly should not have the authority to force consent.
    Thank you, Mr. Chairman.
    Mr. Waxman. Can I explain to you why I disagree? I don't 
want us to talk past each other. The way it has always worked 
in the past, under Jack Brooks as Chairman, John Dingell as 
Chairman, and all these others, even if the words say 
"consultation," the notion was that if you go to the Minority--
and I would have no reason to disagree with subpoenaing the 
deposition of all these cast of characters that have been 
clearly part of the contributions that we have been hearing 
about from the Democratic National Committee and the 
Republicans. If I did disagree with it, and the Chairman called 
a hearing, what would I say? I don't think that John Huang 
ought to be brought in to give a deposition because he doesn't 
know anything about it? I would look foolish to do that.
    What I am suggesting to you is that the Minority have 
always had the right to make a case in those rare instances 
where we think the Chairman may be wrong in a subpoena or in 
those instances where we think the Chairman ought to issue 
subpoenas, and then the decision is up to the Majority of the 
committee.
    The committee is a majority Republican. If I can't make a 
case to convince some Republicans and Democrats adding up to 
the majority that I am right, they will outvote me. But what 
happens under these proceedings, and what I am talking about, 
are procedures that Clinger put into place. What happens now 
you remove those, I can only make the case to Dan Burton. The 
Minority cannot make a case to our colleagues on the committee, 
even if we are going to be outvoted. We cannot request 
subpoenas, we cannot really object to subpoenas if Dan Burton 
doesn't agree with us.
    And then they adopted a rule that when we get into the 
deposition, the Clinger rule said that the Majority would take 
an hour, and then we get an hour, and then you go back to the 
majority and then we get an hour. They changed the rules to say 
they just get to ask questions until they are through, even if 
it takes days for them to complete their questions. If I showed 
up at the deposition, and his staff attorney was asking 
questions, I could sit there all day and not get a chance to 
ask questions, or my staff.
    And so the point is, you could say the Minority is the 
Minority. We are outvoted if we can't win over people to our 
side. But I think we are being put in a position where the 
Minority can't even make the case in a public setting. And you 
can say, well, what role is there for us to play, and what do 
you need a Minority for? I think you need a Minority in a 
democratic system to keep the Majority honest and to make our 
arguments if we have an opportunity to do so.
    Mr. McInnis. Just in final conclusion, because I know 
everybody would like to go to dinner, but it seems to me that 
the Minority has had ample opportunity, and the best, clearest 
example is the last half an hour listening to you, frankly.
    Mr. Waxman. I am sorry to have burdened you.
    Mr. McInnis. You have had half an hour of time.
    Mr. Waxman. One of the few occasions that I will have an 
opportunity to make it.
    Mr. McInnis. This is one of the opportunities that you have 
had in the last half an hour to express very strongly in 
strongly-worded language. So I don't buy into the argument that 
the Minority is going to be cut out of this. You have every 
right to be heard, but you don't have the right to rule.
    Mr. Moakley. Will the gentleman yield?
    I am sure that Mr. Waxman would love to have the 
opportunity in his committee that he has before us here, which 
he doesn't have.
    Mr. Burton. May I make a brief comment? Mr. Waxman, like 
everybody else on the committee, but especially Mr. Waxman, 
gets ample time to express his views. He has never been quieted 
down or shut up in any way. As a matter of fact, we did try to 
move the previous question one time, and it went on for over an 
hour because he used dilatory tactics, which I understood, to 
extend the vote. And so I learned my lesson. They hit me in the 
face with a broad ax, and I learned that we don't cut the 
debate off, and so they fully debate and discuss every single 
issue.
    One other thing I wanted to point out that is very 
important. That is whenever a Member of Congress comes into a 
deposition, whoever is doing the questioning is instructed by 
me, and that was instructed today in the public hearing, that 
they immediately stop, or as soon as they conclude the question 
they are on, they stop and ask the Member who is there, whether 
it is a Democrat or Republican, if they have any questions, and 
they do, then we cede the floor to that Member, and that is the 
way it has been, and that is the way it will be.
    Mr. Waxman. I will never have a chance to make my argument 
to the committee because we will have vested the power to the 
Chairman, and I will not be able to make a case to them, and 
that seems to me is the worst thing to do to a Minority, not 
even to silence us and not be able to appeal to our colleagues 
of the other party.
    Mr. Goss. I wanted to make a couple of observations in the 
time we have here. We are not here talking about subpoenas. We 
are talking about the resolution that the Rules Committee is 
trying to evolve to put on the floor for the conduct of this 
matter.
    And the facts seem to be that some of the most important 
individuals that your committee would like to talk to have fled 
the country, or have left the country, or are no longer 
available in U.S. jurisdiction, and that not only that, they 
are hostile witnesses. Consequently you have an extraordinarily 
difficult task, and we are trying to look into pressing the 
rules of the House to find out what tools would be appropriate 
for you to have in the legislative branch of government for the 
oversight responsibilities that we have for legislative, 
investigative and oversight hearings.
    I think that we have done our homework quite well, and I 
think we have come up with a resolution that is entirely 
responsible that deals with two out of the three facets of it, 
that deal with overseas matters, taking depositions overseas, 
and one has to do with a balanced guaranteed opportunity for 
taking depositions by staff in the domestic United States. It 
seems to me that is pretty fair machinery that we are giving, 
and I fail to see any problem with it.
    And I think the rest of this discussion that has gone on is 
somewhat colored by other matters which really are not properly 
before us.
    I would add a couple of observations on my own to sum up 
the matters that have taken place. I happened to serve on the 
October Surprise investigation as one of the Members in the 
Minority. I have tremendous respect for Mr. Hamilton, but there 
was no question Mr. Hamilton was running that operation. That 
was a very weird investigation because it was a very weird 
story that Mr. Sick came up with, which was glommed onto 
presumably for partisan reasons and proved to be a total 
figment of somebody's imagination. It cost us a lot of money, 
but I think we had an exercise of appropriate mechanics, which 
are the same mechanics we are presenting you with, as far as I 
understand.
    The second problem I have with this one, and please don't 
interpret these as partisan remarks because they are not, I 
have been badly misled by the White House on some matters 
involving Filegate personally, involving the GAO board that Mr. 
Clinger participated in under the Clinger rules as well as Mr. 
Wolf, and we were led astray, and, in fact, the GAO may very 
well have been led astray by the White House.
    And that is why I take a little exception about your 
testimony, Mr. Waxman, about Craig Livingstone. I would like to 
talk to Craig Livingstone. I would like to ask him how that all 
came to pass, that even the GAO investigators couldn't seem to 
get it right in response to a very legitimate complaint where 
we thought we were getting the right facts under rules that we 
felt were appropriate that Mr. Clinger had. So I think we have 
been misled, and I gather "Once burned, my fault; twice burned, 
watch out," is a little bit the way I feel on that one. So I 
personally would like to see Mr. Livingstone, and if you 
subpoenaed him, I think you may be on the right track. I would 
be glad to supply a question or two.
    Mr. Waxman. Before you leave Craig Livingstone, he was 
deposed for 30 hours before our committee under the Clinger 
rules. The Minority never objected to having him deposed. He 
was a key figure in that investigation.
    Mr. Goss. The reason I would like to talk to him is I would 
like to know point blank how he can square off some of the 
testimony we now have from the White House and from the GAO 
report that I am not sure was included in some of that 30 
hours' worth. In other words, what has happened is that the 
trail has unwound here. We find there is new information, and 
we find out that maybe we have been further misled. Every day 
that we go by, we get new information that was true yesterday; 
gee, that was true yesterday, but there is something new today 
that doesn't quite square. And I think you have a huge task 
trying to make all of this line itself up; 300,000 documents or 
350,000 documents doesn't impress me one bit. I just got 
through a case where people threw rooms full of documents at me 
that didn't mean beans. I needed a few good documents that I 
didn't get.
    That kind of is a problem. So don't measure documents in 
terms of volume of boxes. Measure them in relevance to your 
question and honesty of response. I think that is very 
important. And I am satisfied we are trying to give you tools 
so that the opportunity to do that is there.
    The other thing that bothers me very much about this, and 
this comes from my other responsibilities on the Intelligence 
Committee, I think that we have gone beyond the "Everybody Does 
It" defense. I think we have gone beyond the "Washington 
Beltway Sleaze" defense. I think we are right out there in some 
serious questions about national security at this time. I 
frankly wish that we had an independent counsel investigation 
going on. I believe that is the right way to have done this.
    Since that opportunity is apparently not available for this 
investigation being conducted, I think that it would be 
inexcusable if we didn't exercise our oversight, and I think 
that is trying to be done in a forthright manner. I know 
partisan politics and charges are going to come in on this. 
That is the name of the game, and in this atmosphere there is 
no chance that is not going to happen. We know that. But I want 
to be certain that the machinery is in place to be operated 
fairly. The public will determine whether it is or is not when 
this thing is said and done, but we have to give you the right 
machinery, and that is what this resolution is about, nothing 
more and nothing less. That is my view of where we are. So I 
hope you would agree that at least our resolution is on the 
right track.
    Mr. Waxman. You are asking me? Because I don't think it is.
    Mr. Goss. Tell me what you would do with our resolution.
    Mr. Waxman. I don't think you ought to give a committee the 
power that that resolution gives us.
    Mr. Goss. What aspects specifically?
    Mr. Waxman. Unless you know that that power is going to be 
exercised responsibly, and I feel that the rules that our 
committee has adopted are not going to lead to a fair 
investigation. We needed a bipartisan, fair investigation where 
both of us are working together to get to the truth of all of 
these issues, and particularly when it comes to foreign 
contributions to campaigns, whether it be Democrat or 
Republican campaigns.
    Mr. Goss. Henry, we are not going to micromanage another 
committee's jurisdiction. We are going to pass a resolution 
that is under the jurisdiction of the Rules Committee, which is 
what we are trying to do. We do not go into other committees 
and tell them how to conduct themselves. I do not tell chairmen 
of other committees how to run their business, nor should I. We 
give them the rules. We let them do it.
    Mr. Waxman. If we had good rules, I wouldn't disagree with 
you.
    Mr. Goss. What is wrong with the resolution? You are 
talking about your committee? You are not talking about my 
resolution or this committee's resolution? I am addressing 
myself to this committee's resolution.
    Mr. Moakley. Mr. Burton, according to the Washington Times 
today, your staff says you are considering using "act of 
production immunity" to obtain documents from key witnesses. 
This is a very difficult area of case law. Even the Supreme 
Court has said that you have to be very careful about using it. 
In Braswell v. United States, they state that "a grant of 'act 
of production immunity' can have very serious consequences." It 
is very hard to separate the document from the person. In any 
case where you want to leave open the possibility of 
prosecuting the person who turns over the documents, this kind 
of limited immunity can jeopardize that prosecution.
    The Supreme Court decisions on this must give Justice 
Department prosecutors real concern, so I was wondering have 
you talked with the Justice investigative team about this, or 
Ken Starr, or anyone on your staff on these investigations, 
thought through the consequences? Are you comfortable with that 
kind of immunity?
    Mr. Burton. Mr. Moakley, I agree with you 100 percent. 
Before we would even consider granting production immunity, we 
would talk to the other people conducting investigations. The 
Justice Department. I have already talked to Ken Starr, and I 
told him before we even talked about any kind of immunity, 
production immunity, document production immunity or others, we 
would certainly consult with him, because we don't want to 
impede in any way any of the other investigations or jeopardize 
our own.
    Mr. Moakley. That is good, Mr. Chairman.
    Solomon is not here, but he referred to the Rules Committee 
gave special subpoena authority to Chairman Conyers in the 
103rd Congress; it never happened.
    Mr. Goss. Then we should ask the Chairman of the 103rd.
    Mr. Moakley. Anyway, I would like to put in the record the 
nine different occasions where the committee has had to have 
consultation on Bosnia, travel office, October Surprise, it 
showed the practice was more concurrence than just 
consultation. Without objection, Mr. Chairman?
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7094.245
    
    [GRAPHIC] [TIFF OMITTED] T7094.246
    
    [GRAPHIC] [TIFF OMITTED] T7094.247
    
    Mr. Goss. Without objection.
    Mr. Moakley. I have other questions, but I think we have 
probably been over this. Do you have anything else, Mr. Hall?
    Mr. Hall. No more questions.
    Mr. Moakley. Are you sure?
    Mr. Hall. Positive.
    Mr. Goss. Mr. Hastings, you didn't get a shot.
    Mr. Hastings. Thank you, Mr. Chairman. I was in the other 
room. But I would just say as a relatively new Member of this 
body, and a Member that goes home rather frequently and hears 
constantly, I guess, a sense of, for the lack of a better word, 
distrust that is going with us, elected Representatives, that 
there has to be some sort of method to get to the bottom of 
what it is all about, and I think this is one of the means. It 
is not the end, but I think this is part of it, and from my 
perspective, my understanding of it is that this is consistent 
with the rules that we have had before. What we are doing, I am 
very much in favor of that. And I think that--wish that we 
could get to the bottom of this as quickly as possible. That is 
all I have to say, Mr. Chairman.
    Mr. Goss. Thank you very much. Since there is nothing 
further, we will be adjourned until the call of the Chair at 
approximately--in recess until approximately 8:30.
    [Whereupon at 7:30 p.m. the Committee recessed to be 
reconvened subject to the call of the Chair.]

                                <all>
</pre></body></html>
